      Department of Homeland Security




            Transportation Security Administration’s 

              Efforts To Identify and Track Security 

                Breaches at Our Nation’s Airports 

                             (Redacted)





OIG-12-80                                                May 2012

                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                      May 3, 2012

                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report is prepared in response to Senator Frank Lautenberg’s request for an
investigation into media reports focused on security breaches at Newark Liberty
International Airport, including the contributing factors that led to the security breaches.
It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                       Anne L. Richards
                                       Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................4 


     TSA’s Efforts at Newark Liberty International Airport……… ....................................4 


     TSA’s Guidance and Oversight for Reporting Breaches Nationwide ...........................8 


     Conclusion ...................................................................................................................16


     Recommendations........................................................................................................16 


     Management Comments and OIG Analysis ................................................................17 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................18 

     Appendix B:           Management Comments to the Draft Report .......................................20 

     Appendix C:           Senator Lautenberg Request Letter......................................................24 

     Appendix D:           Process for Identifying, Reporting, and Tracking Security Breaches..27 

     Appendix E:           Security Breach Controls and Promising Practices .............................28 

     Appendix F:           PARIS Categories ................................................................................30 

     Appendix G:           Major Contributors to this Report........................................................31 

     Appendix H:           Report Distribution ..............................................................................32 


Abbreviations
     DHS              Department of Homeland Security 

     EWR              Newark Liberty International Airport

     FSD              Federal Security Director 

     OIG              Office of Inspector General 

     PARIS            Performance and Results Information System 

     SOP              Standard Operating Procedures 

     TSA              Transportation Security Administration 

     TSO              Transportation Security Officer 

     TSOC             Transportation Security Operations Center 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   Senator Frank Lautenberg requested an investigation into media
                   reports focused on security breaches at Newark Liberty International
                   Airport, including the contributing factors that led to the security
                   breaches. He requested that we compare the incident rate of
                   breaches at Newark to other airports in the region and comparable
                   airports. He asked us to determine whether corrective action had
                   been taken on the specific security incidents. We determined
                   whether the Transportation Security Administration (TSA) at
                   Newark had more security breaches than at other airports. We also
                   determined whether TSA has an effective mechanism to use the
                   information gathered from individual airports to identify measures
                   that could be used to improve security nationwide.

                   Of the six airports we reviewed, TSA at Newark

                                             Our analysis showed that TSA at Newark
                   has taken corrective actions to address the incidents identified by
                   Senator Lautenberg, but took corrective actions for only 42% of
                   the security breaches shown in its records.

                   While TSA has several programs and initiatives that report and
                   track identified security breaches, TSA does not have a
                   comprehensive oversight program in place to gather information
                   about all security breaches and therefore cannot use the
                   information to monitor trends or make general improvements to
                   security. The agency does not provide the necessary guidance and
                   oversight to ensure that all breaches are consistently reported,
                   tracked, and corrected. As a result, it does not have a complete
                   understanding of breaches occurring at the Nation’s airports and
                   misses opportunities to strengthen aviation security. TSA
                   concurred with both our recommendations.




            Transportation Security Administration’s Efforts to Identify and Track 

                         Security Breaches at Our Nation’s Airports 


                                            Page 1
Background
                Newark Liberty International Airport (Newark or EWR) is located
                14 miles from Manhattan and serves an important role for the
                New York/New Jersey metropolitan area. In 2010, approximately
                33 million people traveled through Newark Liberty International
                Airport, making it one of the country’s busiest airports.

                Senator Frank Lautenberg requested an investigation into security
                breaches reported by the media at Newark. A string of security
                breaches at the airport heightened concern regarding safety and
                security. These security breaches included a man gaining access to
                the sterile area of a terminal, shutting down operations for 6 hours;
                and a dead dog being placed on a passenger plane without the
                proper screening.

                Senator Lautenberg asked the Department of Homeland Security
                (DHS) Office of Inspector General (OIG) to review the
                contributing factors that led to the security breaches, the TSA’s
                response to the breaches, and the general level of security at the
                airport. He also requested that we compare the incident rate of
                breaches at Newark to other airports in the New Jersey/New York
                region and comparable airports nationwide. The Senator’s letter is
                in appendix C.

                There are varying levels and definitions of security breaches. For
                purposes of this audit, a “security breach” is an individual or
                individuals gaining access to the sterile area, specifically at the
                checkpoint or exit lane, without submitting to all screening,
                inspections, and detection according to TSA’s Standard Operating
                Procedures (SOP). For instance, a person entering the sterile area
                by sneaking through an exit lane without anyone preventing the
                entry would be considered a security breach for this report.

                Newark airport operations are managed by the airport authority,
                airline personnel, law enforcement officials, and other government
                agencies. TSA at the airport coordinates with these stakeholders to
                assist in the prevention and mitigation of security breaches. In the
                event of a security breach, these stakeholders may be involved in




         Transportation Security Administration’s Efforts to Identify and Track 

                      Security Breaches at Our Nation’s Airports 


                                         Page 2
       evacuating the terminals, suspending arriving flights, preventing
       the boarding of departing flights, and assisting TSA.

       TSA at Newark is composed of a Federal Security Director (FSD),
       one Deputy FSD, two Deputy Assistant FSDs, several Assistant
       FSDs, managers, and approximately 943 Transportation Security
       Officers (TSOs). Appendix D illustrates the expected process for
       identifying, reporting, and tracking security breaches.

       Security breaches are documented locally by TSA at each airport.
       TSA staff is required to report security breaches through TSA’s
       Performance and Results Information System (PARIS) and the
       Transportation Security Operations Center (TSOC). The TSOC is
       expected to use this information to identify events occurring at
       disparate locations throughout the U.S. transportation system that
       could represent an orchestrated attempt to defeat or circumvent
       security protocols. We did not evaluate how the TSOC used the
       information about the security breaches we reviewed.

       PARIS is TSA’s internal reporting system and official record of a
       security incident. As detailed in appendix F, PARIS contains 33
       categories of possible incidents. For this audit, we focused on
       incident reports in three PARIS categories:

            •   Security breaches,
            •   Improper/no screening, and
            •   Sterile area security events.

       These categories are defined as security breaches because they
       include an individual or individuals gaining access to the sterile
       area through a checkpoint or exit lane without submitting to all
       screening, inspections, and detection according to TSA’s SOP.




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                                Page 3
Results of Audit
     Of the six airports we reviewed, Newark
                                                                    Our analysis
     showed that TSA at Newark has taken corrective actions to address each of the
     incidents identified by Senator Lautenberg, but took corrective actions for only
     42% of the security breaches shown in their records. TSA has taken steps to
     improve operations at Newark, including a “Back to Basics” campaign to
     reinforce procedures and a study of identified shortcomings and potential
     solutions entitled Newark Commitment to Excellence.

     According to TSA, there are many programs and initiatives to report and track
     security breaches identified. TSA reports that it collects thousands of records of
     incidents and security breaches occurring at airports and other transportation
     facilities. However, TSA does not have a comprehensive mechanism in place to
     gather and track all security breaches. The agency cannot use this information to
     monitor trends or make general improvements to security. TSA does not provide
     the necessary guidance and oversight to ensure that all breaches are consistently
     reported, tracked, and corrected. As a result, it does not have a complete
     understanding of breaches occurring at the Nation’s airports and misses
     opportunities to strengthen aviation security.

     TSA’s Efforts at Newark Liberty International Airport



                    We reviewed actual security breach incident report files from
                    Newark and five comparable airports dated January 1, 2010, to
                    May 31, 2011. Our review showed that the number of security
                    breaches (security breaches, improper/no screening, and sterile
                    area security events) in Newark during the 17-month period was
                    slightly higher than

                                                                    (see figure 1).




             Transportation Security Administration’s Efforts to Identify and Track

                          Security Breaches at Our Nation’s Airports


                                            Page 4
                               Figure 1: Security Breach File Reviews at Six Category X 1
                               Airports Between January 1, 2010, and May 31, 2011




                           Although Newark’s        security breaches
                           among the other airports reviewed, the types of breaches were
                           similar. These breaches included TSOs not detecting prohibited
                           items (e.g., knives) in carry-on baggage or not conducting the
                           required additional screening of passengers who were identified as
                           selectees.

                           Corrective Actions Were Taken To Address Only Some
                           Incidents at Newark

                           Newark took or documented actions to correct only (42%) of
                           the    security breach vulnerabilities identified during the incident
                           report file review. Most of the security breaches in which
                           corrective action was not taken occurred in 2010. Since 2010,
                           Newark has improved efforts to correct security breach
                           vulnerabilities.


1
 This includes security breaches, sterile area access events, and improper/no screening. Category X
airports are the Nation’s largest and busiest airports as measured by the volume of passenger traffic and
may be attractive targets for criminal and terrorist activity.




                   Transportation Security Administration’s Efforts to Identify and Track 

                                Security Breaches at Our Nation’s Airports 


                                                   Page 5
       We verified that Newark implemented corrective actions to address
       each of the incidents cited in Senator Lautenberg’s letter. These
       actions included a civil penalty, letters of reprimand or suspension
       for TSOs, and repairing an accessible gate. Table 1 explains the
       actions taken to correct each of the incidents occurring between
       January and February 2011, as identified by Senator Lautenberg.

       Table 1: Actions Taken To Address Incidents at Newark
         Date         Security Breach        Actions Taken to Address Incidents
                     A dead dog was loaded on a
                       departing flight without              A civil penalty of $55,000
         1/4/2011
                     screening for explosives or            against the airline is pending.
                               disease.
                     A carry-on bag containing a        The TSO received a 5-day suspension
        1/16/2011
                    knife bypassed TSA screening.            for not following the SOP.

                        A TSO handled a bag
        1/30/2011                                      The TSO received a Letter of Reprimand.
                    improperly after it was x-rayed.
                                                    The TSO received a 3-day suspension for
                                                    leaving her position at the accessible gate.
                    A passenger bypassed TSA         Letters of Reprimand were issued to the
         2/1/2011 screening by walking through a Supervisory TSOs involved for failing to follow
                          disability gate.         breach procedures and inattention to duties.
                                                 TSA had a maintenance team repair the latch on
                                                                the accessible gate.
                     Two passengers were allowed
                    through screening even though      The TSO received a Letter of Reprimand
         2/3/2011
                       the monitor on a full-body           for failing to follow the SOP.
                      scanner had malfunctioned.
                                                     TSA took no action. However, The TSOs
                                                   involved received a Notice of Breach of Rules
                  A passenger was not screened
                                                     from Port Authority Police Department for
        2/21/2011 properly and entered the sterile
                                                       failing to conduct proper screening and
                               area.
                                                      following Advanced Imaging Technology
                                                                     procedures.




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                                 Page 6

                                                    Figure 2: Glass Partitions at
       TSA at Newark has also                       Newark Liberty International
       implemented actions to correct               Airport
       several vulnerabilities associated
       with other security breaches. For
       example, Newark replaced rope
       lanes with glass partitions after a
       man entered the sterile area
       through the exit lane in January
       2010 (see figure 2).

       TSA management collaborated            Source: DHS OIG
       with the workforce to review
       security procedures and best practices at Newark and several other
       airports. As a result, in April 2011 TSA issued the report Newark
       Commitment to Excellence, which identified shortcomings and
       proposed solutions to perceived areas of weakness. These
       proposals include enhancing employee training to include
       mandated follow-up training and instituting a program of targeted
       training for Lead TSOs. This should help ensure that frontline
       officers have the skills necessary to effectively direct screening,
       respond to incidents, and prevent them from occurring.

       TSA at Newark also implemented a “Back to Basics” campaign to
       reinforce passenger and baggage screening procedures among the
       workforce. This campaign promoted the increased management
       and supervisory review of operations to ensure that employees
       follow procedures.

       Other actions taken at the airport include addressing checkpoint
       vulnerabilities and actions against employees and responsible
       parties for violating procedures, such as disciplinary actions and
       civil penalties. TSA at Newark has taken steps to ensure the
       isolation of carry-on bags that have been flagged for further
       screening, which has been the cause of security events at Newark
       and other airports we visited. TSA at the airport has also promoted
       the effective use of closed-circuit television.




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                                Page 7
             Newark Has Controls To Prevent, Minimize, Respond to, and
             Correct Breaches

             TSA at Newark has various controls in place to prevent, minimize,
             respond to, and correct security breaches. These controls include
             the following:

             •	 Personnel to test the TSO workforce on checkpoint practices to
                ensure compliance with the SOP;
             •	 Staffing exit lanes with two TSOs;
             •	 Development of a Security Breach Containment Plan designed
                to outline procedures to follow when a security breach occurs;
             •	 Meetings to determine the cause and actions needed to correct
                breach vulnerabilities; and
             •	 Remedial training or disciplinary action for TSOs who do not
                follow the SOP.

             See appendix E for more examples of controls and promising
             practices at Newark and at the other airports we visited.

TSA’s Guidance and Oversight for Reporting Breaches
Nationwide
     According to TSA, the agency has many programs and initiatives that
     report and track identified security breaches. TSA reports that it collects
     thousands of records of incidents and security breaches occurring at
     airports and other transportation facilities. However, TSA does not have a
     centralized mechanism in place to consolidate information about all
     security breaches and therefore cannot use information collected to
     monitor trends or make general improvements to security. Specifically,
     local TSA airport employees do not always properly report, track, and
     analyze all security breaches in PARIS. At the six airports visited, TSA
     did not always take action or document their actions to correct security
     breach vulnerabilities, because the agency did not provide TSA
     management at the airports with a clear definition or guidance for
     identifying and reporting security breaches through its reporting systems.
     Also, TSA did not provide oversight to ensure that all security breaches
     are consistently reported, tracked, and corrected.




      Transportation Security Administration’s Efforts to Identify and Track 

                   Security Breaches at Our Nation’s Airports 


                                      Page 8
       TSA Efforts to Improve Breach Data Collection and Analysis

       According to TSA, there are many programs and initiatives that
       report and track identified security breaches. However, the various
       activities tracked are not all inclusive or centrally managed. TSA
       reports that it collects thousands of records of incidents and
       security breaches occurring at airports and other transportation
       facilities. The agency documents and disseminates the information
       to the program offices through various channels of reporting.
       These channels include:

            •	 The Transportation Security Operations Center—this is the
               nerve center for TSA's operational control of crises and
               incidents and is the security incident information conduit
               between TSA field offices, TSA senior leadership, and
               DHS. The most significant security breaches and incidents
               are tracked and reported in real-time for TSA senior
               leadership and briefed at the Administrator's Daily
               Intelligence Brief.

            •	 Executive Summary Report—a daily report which includes
               details on security breaches and incidents that were
               reported in the previous 24-hour period to the
               Transportation Security Operations Center. This report is
               widely distributed and used by managers and senior
               executives throughout the Agency. The Executive
               Summary Report is also included in the Administrator's
               Daily Intelligence Brief.

            •	 TSA's Management Controls Program—this program sets
               policies, procedures, and the basic structure for TSA's
               management oversight and accountability program. As part
               of TSA's Management Controls Program, each hub airport
               is responsible for completing the FSD Office of Inspection
               Program/Internal Control Checklist consisting of eight
               checklists and performing regular internal control
               assessments throughout the year. TSA's Office of
               Inspection sends Inspectors to each airport every 4 years to
               review assessments, supporting materials, and existing




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                                Page 9
                processes to ensure that airports are compliant with TSA's
                policies and directives.

            •	 TSA formed an Assessment Team in March 2010. This
               team visited 20 airports to focus on proper training and
               ensuring a common understanding of security breaches.
               The team reviewed breach containment plans, observed
               breach drills, shared best practices, and conducted training
               to increase TSA's proficiency in handling and containing
               breaches. TSA also compiled a number of resources to
               assist FSDs with managing and mitigating security
               breaches, such as guidance on developing Security Breach
               Plans for their airports, conducting meaningful security
               breach drills, training programs and training aids for TSA
               employees, and tools for conducting appropriate after
               action reviews for significant airport security breaches.
               Additionally, TSA developed a centralized website which
               contains all these resources.

       Breach Data Not Consistently Reported, Tracked, and
       Analyzed

       TSA does not have an effective mechanism in place to gather
       information about all security breaches and cannot use the
       information to monitor trends or make general improvements to
       security. Local TSA airport employees do not always properly
       report and track all security breaches in PARIS. For each of the
       six airports we visited, we compared local records of security
       breaches occurring between January 1, 2010, and May 31, 2011,
       with information reported in PARIS.

       We identified that only (42%) of the         security breaches we
       reviewed in files were reported in PARIS under any category. For
       instance, Newark reported only security breaches in PARIS
       between January 1, 2010, and May 31, 2011. However, the
       number of actual security breach incident report files reviewed at
       Newark was . Figure 3 shows the number of security breaches
       reported in PARIS compared to the higher number of actual
       security breaches identified during our incident report review.




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                               Page 10
       Figure 3: Comparison of Security Breaches Reported in PARIS
       to Security Breach Incident Report Files,
       January 1, 2010 to May 31, 2011




       Of the     incidents reported in PARIS,      were not properly
       identified under categories such as sterile area access event,
       improper/no screening, or security breach. For example, no
       incident report was filed under the categories of security breach,
       sterile area access event, and improper/no screening for a loaded
       firearm entering the sterile area in a carry-on bag. Through a
       review of disciplinary actions against the TSOs, we discovered that
       this incident was reported in PARIS under the broad category
       “actual dangerous/deadly item,” not “improper/no screening.”

       Another example of improper reporting occurred at one airport
       where TSA did not report an incident when a passenger was
       allowed to proceed into the sterile area without a valid boarding
       pass. TSA management at the airport said this incident was not




Transportation Security Administration’s Efforts to Identify and Track
             Security Breaches at Our Nation’s Airports

                               Page 11
       reportable in PARIS based on their interpretation of the guidance.
       However, TSA headquarters officials informed us that this incident
       should be reported in PARIS. At another airport, TSA did not
       report an incident where a bag containing an unknown liquid was
       improperly cleared and grabbed by the passenger before the
       screening process was complete.

       TSA performs minimal tracking and analysis of security breach
       data. TSA’s Office of Compliance Inspection and Enforcement
       Analysis is responsible for collecting, tracking, and analyzing
       PARIS data. According to TSA officials, the agency tracks and
       analyzes breach data only upon request and produces ad hoc
       reports. These reports contain information such as the number of
       security incidents reported by airport, demographic location, or
       threat type.

       Without accurate and complete information and analysis, TSA is
       limited in its ability to correct and resolve security vulnerabilities.
       TSA could have a valuable source of security breach data if
       incidents were consistently reported in PARIS. The data could be
       used to detect security vulnerabilities and identify trends among
       airports nationwide.

       Corrective Actions Were Not Always Taken To Address
       Breach Vulnerabilities

       At the six airports visited, TSA did not always take action or
       document their actions to correct security breach vulnerabilities.
       During our review, we identified documentation of corrective
       actions for only      (53%) of the     breaches we reviewed.

       Table 2 shows the number of security breach incident reports
       reviewed and whether corrective action was taken to prevent or
       minimize future security breaches.




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                               Page 12
       Table 2: Number of Security Breaches Reviewed and Corrective or
       Punitive Actions Taken and Documented
              Number of Security Breaches (January 1, 2010–May 31, 2011)
                                                Corrective/
                                Breaches
                Airport                       Punitive Action      Percentage
                                Reviewed
                                             Taken/Documented
                                                                      42%
                                                                      48%
                                                                      61%
                                                                      50%
                                                                      88%
                                                                      57%
                 Total                                                53%

       Corrective and punitive actions included training; letters of
       counseling; reprimand; suspension; administrative inquiries;
       changes to checkpoint configuration; and enforcement actions
       issued against passengers, airline, or airport employees. For
       instance, TSA can provide remedial training to TSOs for
       knowledge gaps or deficits and initiate civil and criminal
       procedures against passengers, airlines, and airport employees for
       violating TSA regulations. Additionally, TSA may adjust the
       design, layout, infrastructure, or staffing associated with screening
       checkpoints to mitigate vulnerabilities.

       Guidance for Reporting Breaches Was Unclear

       TSA’s current operations directives for security breach definitions
       and reporting requirements are unclear and contribute to reporting
       inconsistencies, which hinders TSA’s ability to track and analyze
       breach trends across airports. Under the PARIS reporting system,
       a security incident could fall under more than one of 33 categories
       in PARIS because of the ambiguity of the operations directive as
       currently written. For example,

            •	 TSA at one airport reported an improper bag handoff
               incident in PARIS as a sterile area access event. However,
               TSA at another airport reported four similar incidents as
               security breaches.

            •	 We identified two similar security breaches reported at
               different airports involving a knife that went undetected




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                               Page 13
                through screening and into the sterile area. In PARIS, one
                airport noted the breach as an improper/no screening event
                while another airport reported the breach as a sterile area
                access event.

            •	 TSA at one airport did not report a passenger who entered
               the sterile area with a handwritten boarding pass because
               management did not think the scenario fell under any
               PARIS or TSOC requirements. In contrast, two other
               airports reported this type of incident in PARIS.

       TSA’s Operations Directive OD-400-50-5-3, Management of
       Security Breaches, contains a different definition of what
       constitutes a breach of security than that found in the operations
       directive for PARIS reporting. For example, Operations Directive
       400-50—5-3 indicates the following:

            •	 A security breach is defined as “any incident involving
               unauthorized and uncontrolled access by an individual or
               prohibited item into a sterile area or secured area of an
               airport that is determined by TSA to present an immediate
               and significant risk to life, safety, or the security of the
               transportation network
                                     ”
            •	 Access events that do not specifically meet the criteria of a
               security breach are considered security incidents/events and
               should not necessitate the closure of any portion of the
               airport.

       In TSA’s Operations Directive 400-18-1, Reporting Security
       Incidents via PARIS, the term “security breach” is defined as
       follows:

                “Incidents involving an individual gaining access to the
                sterile area at the screening checkpoint or a collocated
                operational exit lane without submitting to all screening
                and inspections of his/her person and accessible property in
                accordance with procedures contained in the Screening
                Checkpoint Standard Operating Procedures.”




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                               Page 14

       TSA headquarters could have a valuable source of breach data in
       the PARIS system if consistently reported by TSA at the airports.
       PARIS could provide data identifying not only the raw number of
       incidents taking place at the Nation’s airports but also why they
       occurred. Vulnerabilities detected at one airport or in one region
       could be identified and communicated to every FSD in the country
       so that lessons learned at one location could be applied
       nationwide.

       Oversight for Reporting and Tracking Breaches Was Limited

       TSA does not provide the necessary oversight to ensure accurate
       and complete reporting, tracking, and correcting of security
       breaches. TSA could not provide evidence that it reviews or
       validates data submitted by airports in PARIS and the TSOC for
       accuracy, omissions, or errors. TSA does not have a process to
       ensure that all security breaches are identified and reported. It
       does not review security breaches to identify discrepancies with
       the categories used by different airports when reporting events,
       such as those found during our review.

       FSDs are responsible for reporting all security incidents that occur
       at their airport to PARIS and TSOC. TSA coordination center
       managers at the airports are responsible for reviewing and validating
       the data submitted into PARIS and TSOC. However, based on our
       review of incident files and security breaches reported in PARIS,
       TSA is not reviewing and reconciling the data submitted in PARIS.

       At one airport we visited, local TSA management was unaware
       that it was not reporting all incidents in PARIS. Without any
       review or oversight of what the airport reported, this gap in
       reporting was not apparent until our review.




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                               Page 15
Conclusion 

        Without an effective mechanism in place to gather information
        about all security breaches, TSA is unable to monitor trends or
        make general improvements to security. Airports need a clear
        definition and guidance for identifying and reporting security
        breaches through PARIS so TSA can capture an accurate
        understanding of security breaches occurring at airports
        nationwide.

        Without an effective oversight program to ensure security breach
        data is reported, tracked, analyzed, and corrective actions are
        taken, TSA is limiting its ability to prevent, minimize, respond to,
        and take corrective actions against security breaches in the future.
        Consequently, the agency misses opportunities to identify and
        correct vulnerabilities to strengthen aviation security.

Recommendations
        We recommend that the Transportation Security Administration
        Assistant Administrator, Office of Security Operations:

        Recommendation #1: Refine and use one comprehensive
        definition of what constitutes a security breach that can be
        universally reported to Performance and Results Information
        System and the Transportation Security Operations Center. Once
        issued, ensure that this guidance is used and clearly understood
        throughout the agency.

        Recommendation #2: Develop a comprehensive oversight
        program to ensure:

             a.	 That security breaches are accurately reported based on the
                 revised definition, and the events are properly tracked and
                 analyzed for trends. This should include local and national
                 reporting that can be validated at the headquarters level.
             b.	 The agency consistently takes actions to correct
                 vulnerabilities resulting from security breaches.




 Transportation Security Administration’s Efforts to Identify and Track

              Security Breaches at Our Nation’s Airports


                                Page 16
Management Comments and OIG Analysis
       TSA provided comments to the draft report. A copy of the
       response in its entirety is included in appendix B. TSA agreed
       with the recommendations in the report and identified planned
       actions to address the recommendations made within the report.
       Both recommendations are unresolved and remain open. TSA also
       provided technical comments and suggested revisions to sections
       of the report. When appropriate, we made changes to reflect the
       suggested revisions.

       Management Comments to Recommendation 1

       TSA concurs. The Administrator agreed that a single definition of
       Security Breach should exist in all relevant policy documents.
       TSA is coordinating appropriate revisions to the relevant
       Operations Directives.

       OIG Analysis: TSA’s planned actions sufficiently address the
       recommendation. The recommendation is unresolved and will
       remain open until TSA provides copies of the revised Operations
       Directives.

       Management Comments to Recommendation 2

       TSA concurs. The Administrator responded that TSA is working
       to enhance its oversight of airport security breaches and will better
       leverage PARIS to more accurately report, track and analyze
       trends. TSA is also updating its airport performance metrics to
       track security breaches and airport checkpoint closures at the
       national, regional, and local levels. This will allow TSA Regional
       Directors and headquarters leadership to better assess airport
       performance and correct vulnerabilities.

       OIG Analysis: TSA’s planned actions sufficiently address the
       recommendation. The recommendation is unresolved and will
       remain open until TSA provides documentation to support the
       actions taken.




Transportation Security Administration’s Efforts to Identify and Track 

             Security Breaches at Our Nation’s Airports 


                               Page 17
Appendix A
Purpose, Scope, and Methodology

                    We conducted this audit in response to a request from Senator
                    Lautenberg of the Senate Appropriations Committee. The letter is
                    included as appendix C. The Senator was concerned about a series
                    of security incidents reported at Newark Liberty International
                    Airport. In addition to addressing Senator Lautenberg’s specific
                    concerns, we also determined whether TSA has an effective
                    mechanism to use the information gathered from individual
                    airports to identify measures that could be used to improve security
                    nationwide.

                    We interviewed officials and personnel from various offices and
                    groups within TSA involved in security operations, including the
                    Office of Security Operations, Compliance, and Field Operations
                    Divisions; Office of Technical Training; Office of Improvement
                    Branch; and Transportation Security Operations Center. We
                    reviewed PARIS reports from January 2008 through May 2011, as
                    well as TSOC reports from the selected airports. Through an
                    analysis of the security incident reports and PARIS documentation,
                    we identified differences in PARIS reporting among airports.

                    Interviews and supporting documents provided a detailed
                    understanding of TSA’s policies and procedures for reporting
                    security incidents at airports. They also provided insight into how
                    TSA uses this data to detect security vulnerabilities and to prevent
                    breaches from occurring.

                    To determine the incident reporting standards mandated by TSA,
                    we examined the following TSA operating directives:

                         •	 OD-400-18-1: Reporting Security Incidents via PARIS
                         •	 OD-400-18-2D: Reporting Security Incidents to the 

                            Transportation Security Operations Center

                         •	 OD-400-50-5-3: Management of Security Breaches

                    We selected six airports to review, including Newark Liberty
                    International Airport,

                                          . The three remaining airports were selected
                    based on the airport screening performance, passenger volume,




             Transportation Security Administration’s Efforts to Identify and Track 

                          Security Breaches at Our Nation’s Airports 


                                            Page 18
Appendix A
Purpose, Scope, and Methodology

                    number of TSA employees, history of airport management based
                    on TSA headquarter interviews, and regional variation. These
                    airports were

                                         . All the airports we visited are within the top
                    20 Category X airports in passenger volume. The method of
                    selecting our locations prevents us from projecting the findings on
                    a national level.

                    At each airport, we interviewed TSA management to discuss
                    airport security operations and reviewed security breach plans. We
                    also met with representatives of other key stakeholders to obtain an
                    understanding of their role as it relates to security. These included
                    the airport authority, local police, and major air carriers operating
                    from that airport. We reviewed         security incident reports of
                    security breaches documented by the airports that occurred
                    between January 2010 and May 2011. We looked only at those
                    that fell under the categories of security breaches, improper/no
                    screening, and sterile area security events. These incident reports
                    were provided by TSA management at each location and contained
                    information on security events that are reportable to PARIS and
                    TSOC.

                    We conducted this performance audit between April and
                    September 2011 pursuant to the Inspector General Act of 1978, as
                    amended, and according to generally accepted government
                    auditing standards. Those standards require that we plan and
                    perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based
                    upon our audit objectives. We believe that the evidence obtained
                    provides a reasonable basis for our findings and conclusions based
                    upon our audit objectives.




             Transportation Security Administration’s Efforts to Identify and Track 

                          Security Breaches at Our Nation’s Airports 


                                            Page 19
Appendix B
Management Comments to the Draft Report



                                                                                       L. S. I) fparlm ~ nl of HOll efand Security
                                                                                       60 1 SOU!l'I HUI Stre et
                                                                                       Ar in " lon. VA 20398


                                                                                       Transportation
          lIAR - 9 1011                                                                Security
                                                                                       AdJninistr.iltion




                                                    INFORMATION


        MIO MORAND UM FOR :                        Anne L. Richards
                                                   Assistant fn sr ector C1eneral for Auo its
                                                   U.S. Department of Home land Security

                                                   John S. Pistole
                                                   Administrator
                                                                     4lt- r~
                                                                     U
                                                                             l




        SUBJECT:                                   Response to Dra ft Report , Transpo rtation Security
                                                   AdminislrOfio" 's Efforts to Idenlifv a lld Track Breaches
                                                   at Our Natioll 's Airporls. orG Project No. 11 -1 20-AOO-
                                                   TSA, dated December 27, 20! I




        Thi s memorandum provides th e T ransportation Security Adm ini stration ' s (TSA) response to the
        U.S. Departm ent of Home l2nd Security (DRS) Office of the Inspector General (OIG) dra O
        repmt, Transportation SeL1JdlY Administration's EjJurls (Q Ide1lllfy and Truck Breaches at Ollr
        Nalioll 's Airp orts. UIU Projec t No. l 1- 120-A CD- TSA, dated L>ecember 2 7, 2011.

        Background

        In Apri l 20 I I, in response to a request from Senator Frank Lautenberg, DH S OIG initiated a
        review of T SA ' s efforts to identi fy and track breac hes at our Natio n 's airports. {n hi s request,
        Senator Lautenberg specificall y mentioned incidents at Newark-Llberty Internationa l Airport
        ( EWR) .

        Du ring this review, DH S OTG visited six Category X a irports, including EWR , to compare the
        incident rates at EWR to o ther airports and detennine whether corrective acti on had been taken
        at EWR on specific security incidents.




                 Transportation Security Administration’s Efforts to Identify and Track 

                              Security Breaches at Our Nation’s Airports 


                                                         Page 20
Appendix B
Management Comments to the Draft Report


                                                                                                                        2


        DHS OIG' s report concludes that:

                 1.) All holigh TSA has several programs and initiativ'es in place that repo rt and track
                     identi fied security hreache~ , TS A does no! have a comprehensive oversight program
                     to gather information about all ~ecur i ty breaches and therefore cannm lise the
                     informat ion to monitor trends or make general improvements lu security .

                2. ) TSA docs not provide the necessary guidance and oversight to ensure that all
                     breaches are consistently reported, tracked, and corrected.

        At the concl usion of the report, DHS OIG provide s two recommendations for TSA to address.

        Discussion

        TSA understands that ris k crumat be complete ly elimi nated; instead, we focus our efforts on risk
        mili gat ion. The best defense against tlu"eats to ou r transpOItation systems remains a risk-based,
        intell igence-driven, layered security approach that employs a range of measu res, both seen and
        unseen. Each security laye r TSA employs is capable of stopping a terror ist attack . and in
        combination, their security value is multiplied, creating a much stronger and fo rmidable system.
        A terrorist who bas to overCOme multiple ~(.; uril y l<:lyers lo (':<:IITY out <:In <:Iuack is more likely to
        be preempted, deterred, or to fai l during the attempt.

        Detecting, responding to, and mitigating the risks associated with security breaches and inci dents
        c()mprbe a c rili<.:al aspecl ofTSA 's sec urity model. Early it.lenti ficat ion , containment, and
        resolu tion of breaches through the execution and coord ination of defined processes ond
        procedures with all airpo rt stakeho lders (Ire esse ntial.

        TSA appreciates r>HS OfG's work 1.0 identify opportuni ties lO furthe r develop and improve
        TSA'3 ability to mitigate securi ty breaches at our Nation's airports. TSA values OIG 's
        recognition of the work TSA has done since 2010 to improve airpon 's proficiency in managing
        and containing airpon security breaches by sharing best practi ces, ensurin g TSA staff receive
        proper training, maintaining up to date breach containment plans, [If, d regularly conducting
        security breach dri lls. T SA also appreciates OHS OIG's recognition of the steps taken at EWR
        to improve operations and address checkpoint vulnerabilities, including the "Back to Basics"
        campaign and the ,"',-'ewark Commitment to Excelle/1ce. The current EWR fede ral Securi ty
        Director (FSD) and Deputy FSD have been in place since April 24, 2011, and july 31, 20 11 ,
        respectively; and both have made sign ificant chan ges in procedures . processes, and workforce
        communication that have made a positive difference in the workforce climate and sec urity
        posture of the airport.

        As DHS OIG points out, TSA has several programs and initiatives for reporting and tracking
        ai rport securi ty breaches . Each year, T SA collects thousands of records of incidems and security
        brea(.;hes o<.:(.;urri ng al airports and at othe.· lranspol1ation facili ties. These ai rport security breach
        and incident reports are widely disseminated to aFJpropriate TSA program offices through vario us




                 Transportation Security Administration’s Efforts to Identify and Track 

                              Security Breaches at Our Nation’s Airports 


                                                           Page 21
Appendix B
Management Comments to the Draft Report


                                                                                                                      3


        channels of reponing. TSA leadership regularly reviews reports on sign ifi ca nt airpol1 security
        breaches and incidents, including n daily briefing provided as part of lhe Admini strator"s Dai ly
        Intdl igence R rief. TSA acknowlerlges \hal it call funher nevelop and expand ils oversight
        programs fo r gathering and trucking airport security breaches.

        T SA also acknowledges that t here is opportuni ty \0 improve its data collecti on and analysis of
        ai rporl secu riLy hrt:1:Iches. TSA clIrren ll y pu bl ishes H w idp. varie ty of reports and aIllllyses of
        security breaches based on incident reports filed in the Perfonmmce and Results Tnfonnation
        System (PARIS). PARIS is the focal po int for reponing i nfOrtTl!'lli on conceming seeuri ty
        breaches and related act ivi ty, with on emphas is on sec urity breac hes that result in civil
        e nfo rcement in vestigatio ns. S in ce 2004, this infonlla ti on technolo gy app li calion has provided
        users across the Agency with a custom -v iew " Dashboard" that provides a runn ing total and
        J t::SCription of stXUli I)' incidents as tlu::y are subm iUt!d into the datahase hy each airpon.
        Moreover, the PARI S Security Keports Modu le provides an end-user w ith a broader capabi lity to
        view iucidelLt n:: Dort~ based 0 11 a wide varit::ly u[pararm:ters (t!.g .• uate range, 1UC<1lion. Iype of
        incident, and more). PA RI S reports can be generated for various categories of airport security
        inciutmls and can be org<m ized hy: frequency of reporti ng; Cli rport or inc ident type; ai rport
        category, date, and time; and var ious other param eters. TSA acknowledges that it can better
        levemge PARIS to more Clccuratdy tracK and ClnalyZt:: security breach data to identify trends and
        develop appropriate m it igation s trategies.

        TSA is enhancing its perfonnance management and oversight on's u s and rSA field operations
        tluough its new Regional D irecto r (RD) structure . [mprove me nls will include the use of specific
        performance me trics designed to give RDs and TSA headquarters leadership an overview of each
        region'S overall perfonnance and nrgani7.aliona l health. At Cl m in imum, the primary performance
        metries will be reviewed and ana lyzed by T S/\ senior leadership during monthly RD meetings.
        nne of the upcialed performance metries Ihat TSA is fi nali zing is the rncit..le nt Managem ent
        Indicator (IMI), wh ich will track the number of security breaches and airport checkpoint clos ures
        throughout each region. The IMI will also incorporate new da lCl ent ry re4u iremen ts fur security
        breaches, checkpoint closures, incident management tra in ing, security breach d rills, and tabletop
        exerc ises conducted with airpOJ1 s takeho lders.

        Conclusion

        TSA appreciates the opportunity to provid e feedback to UHS OIG on its draft fi ndings and
        ret:omm enuati ons.




                 Transportation Security Administration’s Efforts to Identify and Track 

                              Security Breaches at Our Nation’s Airports 


                                                          Page 22
Appendix B
Management Comments to the Draft Report




                                 Transport atio n Security Administr ation (TSA)
                                      Respon se to DIIS DIG Dra ft Rep o rt

        TransportatiOIl Security Administration's Efforts to Identify and Tra ck Breaches at Our Nation 's
        Airporls~  Sensitive Secllrity information (S5!), OIG Project No. [[· 120- AUD-TSA December
        27,2011

        DllS O IG provid ed two recommend ati ons for TSA and ou r comments follow each
        recommendation.

               Recommenda tion #.1: Refi ne and use one comprehens ive defi nition of w hat consti tutes
               a securi ty breach that can be universa ll y reported to P erfonnance and Resu lts tnf0J111al ion
               System and tile T ransportation Security Operations Center. Once issued, ensure that this
               guidance is used and clearl y understood throughout t he agency.

               TSA C oncurs: TSA agrees that a single definition of Security Breach sho u ld ex ist in all
               relevant policy doc uments. TSA is coo rdinating appropriate revisions to the re levant
               Operations Direct ives .

               Recommenda tion #2 : further develop a comprehensive oversi ght program to ensure'

                    a. That security breaches are accurately reported based on the revised defi nition, and
                       the events are properl y tracked and analyzed fo r trends. This sho u ld incl ude local
                       and nfltio nal repon ing that can he validated al the headquarters leve l.
                    b. The agency consistent ly takes actions to correct vulnerabi li ties resulting fro m
                       security breaches

               T S i\ C oncurs: TSA is work ing to enhance::: its uversight uf airpOrl se:::curiLy breaches and
               better leverage PARIS to more accu rately report, trac k and analyze trends. TSA is a lso
               updating its airpurt pt::rforfll allce metries to track security breaches and a irport check poillt
               closures at the n ational. regional, and local levels. Th is wi ll a llow TSA Regional
               Directors and headq uarters leadersh ip to bette. assess ai rpol1 performance and co rrect
               vulnerabilities.




                Transportation Security Administration’s Efforts to Identify and Track 

                             Security Breaches at Our Nation’s Airports 


                                                       Page 23
Appendix C
Senator Lautenberg Request Letter


    FRANK R. LAUTENBERG
               N~WJE~S£'l'




                                                         CJ!:lnitcd .statc.s .smate
                ,~


           A,PPROf>FlIA"ONS
     COMMERCE,SCENO:: AND                                         WASHINGTON, DC 20510
          TRA.N'lF"OR-ATION
         ENVIRONI,IIENT AND
            PUBliC WClFlt<'l

                                                                     February 24, 2011


                      Richard L. Skinner
                      Inspector General
                      Department of Homeland Security
                      245 Murray Drive, SW, Rldg410
                      Washington, D.c. 20538

                      Dear Inspector General Skinner:

                              Sin(,;1;! tht: bt:giIlIling uf2011, lht:rt: havt: bt:t:n at It::a:st haifa Jm:t:n sl;!(,;urity brt:aches at
                      Newark Liberty Airport (EWR). raising serious questions about security at one of OUT nation·s
                      busiest airports. These breaches come one year after a security breach at Newark Liberty shut
                      down the terminal for more than six hours . In the wake of these incidents, 1 respectfull y request
                      that you initiate an investigation concerning thege security breacheg, the factors leading 10 them,
                      and the Transportation Sccurity Admin istration's (TSA) responsc.

                               On January 3, 2010, a Transportation Security Administration guard left his post,
                      al lo\\ing a 28 year old man to walk into the secure part of the terminal at Newark Liberty. This
                      security breach shut down the tenninal for more than six hOUTS, delayed 108 depaning flights and
                      50 arriving flights, canceled 27 flights, and affccted 16,000 passengers around the globe.

                              I understand that TSA im;reased set.:urity at EWR foliowiniJ the Januar)' 20 10 incideut;
                      however, a recent proliferation of reported security breaches at the airportl.:alls into lJ.uestiun the
                      sufficiency of these measures:

                           •      Jan. 4, 2011 - a dead dog was loaded onto a passenger flight fTOm EWR 10 Los Angeles,
                                  contrary to proper security procedures. After learning of the breach, TSA considered
                                  recalling the flight but decided not to do so .

                           •      Jan. 16, 20 I I - TSA shut down a security checkpoint in Tenninal C because a carry-on
                                  bag containing a knife made it through screening. The checkpoint reopened 45 minutes
                                  later.

                           •      Jan. 30, 20 I I - A bag wus improperly handed otT after being x-rayed.

                           •      reb. 1, 201 1 - A passenger in Tcnninal D walked through a disability area without being
                                  screened.

                           •      Feb. 3, 2011 - Two passengers were al lowed through a Tl;:rminai 8 I.:her..:kpuinl t:ven
                                  though the monitor of the full-body scanner al that checkpoint was malfunctioning.



                                                            HARTSENATF OFFCE  BUILDING. SUI';' 324                                 ~ ~"""-..;    0Iuv<:
     ~    (i.o.nwAV'-"5 NT1iP. n"OH.DOO                                                                                      o-f'oorrC!:~........ $urTo"~
              Ni;W-"K.NJ 07102                                      WASHINGTON. DC 20!;10                                         c.u.""", N)    011101
    lW7J, &:R-11700    F"", (lI711 J39 8123                  (202) 224-3224 FM: ~202) 228-40!>4                          (II5IIJ:)38--«I~   f ...... t656133&-«13e




                                 Transportation Security Administration’s Efforts to Identify and Track 

                                              Security Breaches at Our Nation’s Airports 


                                                                         Page 24

Appendix C
Senator Lautenberg Request Letter




            •   Feb. 21 , 2011 - An improperly screened passenger was allowed to enter the secure area
                of Terminal B. TSA agents then shut down the checkpoint, found the passenger and
                rescreened him or her.

                 A TSA source told the Star-Ledger newspaper there were three more security lapses, but
         TSA has disputed them. Separately, TSA supervisor Michael Arato pled guilty on February 14,
         2011, to bribery of a public official in federal court. Arato took bribes and kickbacks from a co-
         worker who stole up to $30,000 in cash from passengers who went through his checkpoint in
         Terminal B.

                  Breaches like these would be of grave concern at any airport, but it is particularly
         alarming that they have occurred at Newark Liberty. Newark Liberty is one of the busiest
         airports in the country. with more than 33 million passengers passing through each year-an
         average of more than 90,000 passengers every day. Moreover, it is at high risk for terrorist
         activity: It lies in what security officials have called the most dangerous area in the country for a
         terrorist attack, and one of the planes hijacked on September 11 ,200 1 took off from Newark
         Airport.

                To address the security threat at Newark Liberty, I ask that the Department of Homeland
         Security Inspector General conduct an investigation into the recent incidents at the airport and
         the general level of security there. In particular. thi s investigation should explore:

            •   What fac tors have contributed to these breaches. including, but not limited to:

                    o   Management issues;
                    o   Personnel issues;
                    o   Staffing levels;
                    o   Training;
                    o   Resources;
                    o   Coordination between TSA and the Port Authority of New York and New Jersey;
                        and
                    o   Any weaknesses in current laws or regulations.

            •   Whether this high incidence of security breaches is typical or atypical, as compared to:

                    o   The ordinary rate of breach at Newark Liberty Airport;
                    o   Other airports in the New Jersey/New York region; and
                    o   Comparable airpo rts nationwide.

            •   What security changes were implemented at Newark Liberty Airport following the
                January 3, 20 10 security breach.

            •   Any additional security changes that have been implemented at Newark Liberty Airport
                following the January and February 2011 security breaches there.


                                                           2




                Transportation Security Administration’s Efforts to Identify and Track 

                             Security Breaches at Our Nation’s Airports 


                                                     Page 25
Appendix C
Senator Lautenberg Request Letter




               •   What actions have been taken to discipline security personnel involvcd in brcaches at
                   Newark T.iberty Airport.

               •   What actions have been taken with respect to persons who have breached security at
                   Newark Liberty Airport.

                 The security ofNcwark Liberty Airport is critical not only to the New lerseyll\lt::w York
         region, but to the nation as a whole. Thank you for your prompt consideration of this matter.

                                                       Sincerely,




                                   o~11R..~~         R. LAUTENBERG
                                                  Vice Chairman
                                         Subcommittee oo.Homeland Security
                                          Senate Appropriations Committee



         cc:       Charles Edwards, Deputy Inspector General




                                                           3




                   Transportation Security Administration’s Efforts to Identify and Track 

                                Security Breaches at Our Nation’s Airports 


                                                      Page 26
Appendix D
Process for Identifying, Reporting and Tracking Security Breaches

Due to the static presentation of the flowchart below, the process does not reflect the fluid
steps occurring simultaneously to respond to a security incident. TSA leadership, law
enforcement, and other stakeholders may be brought in earlier than is depicted in the
flowchart, to mitigate an incident.


   1'50 o b s .. rv4ts or is al4trtotdt 0 iMl
   a~c4tss    "v" n!  or s .. ~ urity br .. xh
    by a pass4ll n c'lr, po l i ~4t off; ~4lr,
          or ;tirl i n4t 4t mploy4t4t
                                                      ----+
                                                                     Imm4tdi.",lv r4lsporuVr4l3Ct 10
                                                                     c onI :oin inrid",", if "Ppropri:M4l


                                                                                                                       --      En sur4t4tx itliMl 4t monil o r
                                                                                                                                    r e mainsat pOSl


                                                                                                                                                                 --        Imm 4l di. l.yfollow
                                                                                                                                                                      unauthori: .. d indi~1du:ol/t hr . :II ,
                                                                                                                                                                      majnrain vis u :ol unt~ LEO :orri", ...




                                                                                                                                                                      If observi n c TS O dots not hwe
                  lI olifySTSO
                                                                       Imm 4td i ilulysu sp4tnd            ,..1                   In it iM 4t Sl 4lr h ar4ta           communiC3llio n d ..... ic4tassicn
                                                       ----..        sCr'l4I nin cS. c los4t c h4t0:poi nl             ----+   c ontainm 4lnt pro (4lo dur4lls   ~    s4lco ndTS O to xco mp"", ywilh
                                                                                                                                                                                     rad io




                                                                      All notific3lionsto SI 31 41 and
    IiotifyTS ACo ord inat ion C4t nl e r              ----..        lo c :ollaw ", nfor c",m e nt , f 4t d 'i!f":oI
                                                                     :oC4tnci4ts, airport Sl ak4I holdus




                 Inil;31 '" Elc 4lC UI ;"", lIotif"K3Iions \T5 ASe nior 1.liMlacenl'l!ntl




                          !                                                              !
    FSD or d ...i", .. 4l d4l. 4l ..... in .. s if                     T", rmin ..1S "'nJrilv 1. I"",aC"r
    br4l xh has oc cur .... d l o ini Ti ...                           (o ordinat ",. r 4lspon s4l af t h 4l
     Th " br4lx h c ontainmotnr pbn                                              ch 4tckpoint




                          !

    TS A HQ. via P':"FIiS
                                                     ':"i rlin 4Is                                Po li c4t                       TSO C




     Offi c4t of Su u rity Op4tr3lions c oho s PARIS
                data "",d co ndu cts "", arysis




  Source: DHS OIG




                                   Transportation Security Administration’s Efforts to Identify and Track 

                                                Security Breaches at Our Nation’s Airports 


                                                                                                     Page 27
Appendix E
Security Breach Controls and Promising Practices

During our visits to six airports, we determined TSA has initiated a number of controls
and promising practices. The following list is not exhaustive but represents a few
examples of the controls and practices at each airport.

  List of Security Breach Controls and Promising Practices
  Newark Liberty International Airport
  •    Exit Lanes: TSA installed motion sensors at exit lanes to detect when people are walking the wrong
       way.
  •    Breach Drills: As part of the breach containment plan, breach drills are conducted to reinforce actions
       to be taken when responding to an actual security breach.
  •    After-Action Reports: TSA prepares after-action reports that summarize details of security breaches,
       including the causes and corrective actions.

  •    Crossings Pilot Program: This TSA headquarters-vetted pilot program uses scenarios to test the
       individual performance of a TSO and the actions that he or she takes during the scenario. The program
       reviews the tasks and responsibilities of the TSOs involved with the screening security operations at the
       airport. Transportation Security Specialists for Explosives and other TSA employees develop and carry
       out scenarios to view how TSOs respond to each scenario tested at the checkpoint or checked baggage
       area. Rather than focus on placing individual blame, the Crossings Program concentrates on locating
       systemic weaknesses.
  •    Aviation Screening Assessment Program and Covert Testing: TSA management uses these programs
       to spot vulnerabilities at the checkpoints, such as the checkpoint layout and TSOs’ performance. They
       can also use the Aviation Screening Assessment Program results to determine what improvements can
       be made to security operations at the airport.
  •    Management Oversight: Transportation Security Inspectors and Transportation Security Managers
       observe TSOs at the checkpoints and checked baggage areas to spot vulnerabilities with their
       performance.

  •	   Quality Assurance Team: To ensure compliance with SOP, a team composed of a manager,
       supervisors, and senior screeners regularly tour the airport to observe and review the performance of
       checkpoint staff. Observations are made covertly both to assess compliance and to continually
       reinforce best practices.
  •	   X Ray Machines: Plans are underway to enhance the technology infrastructure available to screeners.
       New x ray machines will have dual screens to show two angles on bags being scanned,

  •	   Facility Service Unit: This unit is composed of TSA employees who tour the airport, identify
       problems, and where possible make improvements relating to checkpoint designs, including closed-
       circuit television installations. They work with airport stakeholders
                           and air carriers to improve the checkpoint layouts and ensure that new checkpoint
       configurations comply with all TSA requirements.

  •    Daily Stakeholders Briefing: An airport stakeholders briefing is held daily. Stakeholders comprise
       approximately 70 individuals from TSA                                                                     ,
       Customs and Border Protection, Joint Terrorism Task Force, Airport Fire and Rescue, security
       contractors, and major airlines. Stakeholders report information affecting airport operations. The




                   Transportation Security Administration’s Efforts to Identify and Track 

                                Security Breaches at Our Nation’s Airports 


                                                  Page 28

Appendix E
Security Breach Controls and Promising Practices

      briefing fosters open communication and relationship building between the stakeholders and TSA.
 •	   Exit Lanes: Frosted doors at the exit lanes prevent people on the non-sterile side from seeing through
      the doors to passengers exiting the sterile area.
 •    New Technology:                                                                  developed a prototype of
      an advanced decision support module. The technology is an all-in-one handheld device enabling
      parties to be connected through a smart phone. This module can help TSA and other federal agencies
      assess and mitigate security incidents. It provides accurate and timely information during a telephone
      bridge call, image review in real time of the security event, and notifications of what is happening with
      the event and in other parts of the airport.

 •	   Terminal Chokepoints: The chokepoints restrict access to other sections of the main terminal during a
      security breach, which isolates the threat item or suspected individual to one area.
 •	   TSA Employee Training: TSA management is providing more classroom and floor training to
      supervisors and managers. Additionally, TSA coordinates with other entities to deliver training to TSA
      employees. For example, Customs and Border Protection provided fraudulent document training to the
      TSOs assigned as travel document checkers at the airport.
 •	   Airport Police Training: TSA trained all police officers within the
      Airport Police Division on TSA policies, procedures, and protocols during a security breach. During
      training, TSA provides an overview of TSA employees’ responsibilities and duties so that police
      officers understand everyone’s role in airport security. TSA also offered training to the police officers
      on the new advanced technology screening equipment so the Airport Police understand new procedures
      concerning these machines. The training and information sessions are important in maintaining good
      relationships between TSA and the Airport Police.

 •    Terminal Chokepoints: Chokepoints throughout the airport restrict access to the entire terminal during
      a security breach.
 •    Guidance and Training: Due to the number of security breaches resulting from
      between TSOs and the inability to secure bags at the checkpoint for secondary screening, TSA issued
      guidance through memorandums and offered additional training to the TSO workforce to improve their
      performance and ensure compliance with these checkpoint screening procedures.
 •    Breach Response Protocols:                                            has a security breach containment
      plan with procedures and processes that TSA will implement during a security breach. In addition to a
      designated code phrase used by TSA staff to initiate breach protocols, the airport has a breach alarm
      button. This alarm button activates an amber light system in the main terminal, supervisory TSO
      offices, and the airport’s Coordination Center. The amber light system notifies the
      Police Department to dispatch officers to respond to a security breach. The system also notifies air
      carrier gate agents to stop all aircraft boarding and deplaning activities.




                  Transportation Security Administration’s Efforts to Identify and Track 

                               Security Breaches at Our Nation’s Airports 


                                                 Page 29

Appendix F
PARIS Categories


                   PERFORMANCE AND RESULTS INFORMATION SYSTEM
                                     (PARIS)
                             REPORTING CATEGORIES
                   1.       Access Control
                   2.       Actual Deadly/Dangerous Item
                   3.       Air Piracy
                   4.       Aircraft Accident
                   5.       Bomb Threat
                   6.       Bombing
                   7.       Chemical/Biological/Radiological Agent Threat
                   8.       Chemical/Biological/Radiological Incident
                   9.       Damage to TSA Facilities
                   10.      Dangerous Goods Incident
                   11.      Disruptive Airport or Air Carrier Employee
                   12.      Disruptive Crew Member
                   13.      Hijacking
                   14.      Improper/No Screening
                   15.      Inappropriate Communications/Contact
                   16.      Natural Disaster
                   17.      No-Fly List Match
                   18.      Other
                   19.      Perimeter Breach
                   20.      Perimeter Event
                   21.      Phantom Controller
                   22.      Sabotage to Aircraft
                   23.      Security Breach
                   24.      Selectee List Match
                   25.      Small Arms Fire (includes chemical agents)
                   26.      Sterile Area Access Event
                   27.      Suspected Deadly/Dangerous Item
                   28.      Suspicious Aircraft
                   29.      Suspicious Individual
                   30.      Technological/Mechanical Problems
                   31.      Threats of Air Piracy
                   32.      Unattended Baggage
                   33.      Unruly Passenger




             Transportation Security Administration’s Efforts to Identify and Track 

                          Security Breaches at Our Nation’s Airports 


                                            Page 30

Appendix G
Major Contributors to this Report

                     Patrick O’Malley, Director
                     Cheryl Jones, Audit Manager
                     Kristine Odiña, Analyst in Charge
                     Philip Emswiler, Program Analyst
                     Tia Jackson, Program Analyst
                     Megan McNulty, Program Analyst
                     Terrell Tindull, Referencer




              Transportation Security Administration’s Efforts to Identify and Track 

                           Security Breaches at Our Nation’s Airports 


                                             Page 31
Appendix H
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Transportation Security Administration

                      Administrator
                      Assistant Administrator, Office of Security Operations
                      Assistant Administrator, Operational Process and Technology
                      Transportation Security Administration Audit Liaison

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              Transportation Security Administration’s Efforts to Identify and Track 

                           Security Breaches at Our Nation’s Airports 


                                             Page 32

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
